Nos. 19-267, 19-348
IN THE

OUR LADY OF GUADALUPE SCHOOL,

V.
AGNES MORRISSEY-BERRU,

Petitioner,

Respondent.

ST. JAMES SCHOOL,

Petitioner,

v.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE ESTATE OF KRISTEN BIEL,

Respondent.

ON WRITS OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

I, Daniel P. Kearney, Jr., a member of the bar of this Court, hereby certify that, on
this 10th day of February, 2020, all parties required to be served have been served
copies of the Brief for Amicus Curiae Asma T. Uddin in Support of Petitioners in these
matters by electronic mail and overnight courier to the addresses on the attached
service list.

DANIEL P. KEARNEY, JR.

Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerhale.com

SERVICE LIST

Counsel of Record for Petitioners
in Nos. 19-267 & 19-348
ERIC CHRISTOPHER RASSBACH
THE BECKET FUND FOR RELIGIOUS LIBERTY

1200 New Hampshire Avenue, NW, Suite 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org

Counsel of Record for Respondents
in Nos. 19-267 & 19-348
JENNIFER ANNE LIPSKI
JML LAW, A PROFESSIONAL LAW CORPORATION

5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com

